No.
IN THE SUPREME COURT OF THE UNITED STATES

UNITED STATES OF AMERICA, PETITIONER
v.
MICHAEL J.D. BRIGGS

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
PETITION FOR A WRIT OF CERTIORARI, via e-mail and first-class mail, postage
prepaid, this 22ND day of July, 2019.

[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 7003
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 22. 2019.

Chtif44,/-teft,
Noel J. rancisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

July 22, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice,
in addition to mailing your brief via first-class mail, we would appreciate a fax or
email copy of your brief. If that is acceptable to you, please fax your brief to
Charlene Goodwin, Supervisor, Case Management, Office of the Solicitor
General, at (202) 514-8844, or email at SupremeCtBriefs(&,USDOJ.gov. Ms.
Goodwin's phone number is (202) 514-2217 or 2218. Thank you for your
consideration of this request.

pay

Pg. 2
No.
United States of America v. Mark J.D. Briggs

STEVEN I. VLADECK
727 EAST DEAN KEETON STREET
AUSTIN, TX 78705
SVLADECK@LAW.UTEXAS.EDU
)
MAJ. JOHNATHAN LEGG
FAIRCHILD HALL
ROOM 6H-194
US AIR FORCE ACADEMY, CO 80840
JOHNATHAN.LEGGUSAFA.EDU
TERRI ZIMMERMAN
770 S. POST OAK LANE
SUITE 620
HOUSTON, TX 77056
TERRLZIMMERMAN@ZLZSLAW.COM

